CERTIFICATE OF COMPLIANCE
I certify that this petition for rehearing of the petition for writ
of certiorari is formatted and printed in typeface Century
Schoolbook, 12 point font size, and contains 2, 649 words, plus 351
words of .the Questions Presented, totaling 3,000 words, excluding
the parts of the petition that are exempted by Supreme Court Rule
33.1(d). The Petitioner has provided an additional section totaling
507 words as an overflow section, while requesting the Court to
enlarge the word limits to allow these additional sections totaling
an additional 507 words. 1

STATEMENT OF SERVICE
The Petitioner, hereby certifies that a copy of the foregoing
Petition was served
in regular paper format on or about November 15, 2019, upon the
attorney of record for the Respondents by first class U.S. mail,
postage prepaid, upon:
Noel Francisco
Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue, N.WRoom 5614
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
_Is/ Qihui Huang
Ms. Huang has undertaken her litigation Pro Se at every stage, but has asked at this last
point in her lawsuit's long Pro Se history for advice on writing this brief with as much
clarity as possible. Disclosure of an attorney's assistance to,aWo Se litigant is often
considered appropriate.

